 OFFICE OF AUDIT
 REGION 2
 NEW YORK/NEW JERSEY




               Homelessness Prevention and
                Rapid Re-Housing Program
                     Washington, DC




2013-NY-0001                                 OCTOBER 18, 2012
                                                        Issue Date: October 18, 2012

                                                        Audit Report Number: 2013-NY-0001




TO:            Ann M. Oliva, Acting Deputy Assistant Secretary for Special Needs, DN



FROM:          Edgar Moore, Regional Inspector General for Audit, New York-New Jersey,
                                                2AGA

SUBJECT:       HUD Effectively Administered the Homelessness Prevention and Rapid Re-
               Housing Program, but Measuring the Program’s Outcome Presented Challenges


    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of HUD’s controls over the Homelessness
Prevention and Rapid Re-Housing Program (HPRP) to (1) ensure that grantees expended funds
in accordance with Recovery and Reinvestment Act of 2009 and HPRP guidelines and complied
with Recovery Act reporting requirements and (2) evaluate the effectiveness of the HPRP so that
positive policies can be applied to future HUD-funded homelessness prevention and assistance
programs.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
212-264-4174.
                                           October 18, 2012

                                           HUD Effectively Administered the Homelessness
                                           Prevention and Rapid Re-Housing Program, but
                                           Measuring the Program’s Outcome Presented Challenges
                      DRAFT


Highlights
Audit Report 2013-NY-0001


 What We Audited and Why                    What We Found

We reviewed HUD’s monitoring of the      HUD took actions to mitigate program risks and
Homelessness Prevention and Rapid        generally ensure that HPRP grantees complied with
Re-Housing Program (HPRP) in             Recovery Act requirements and HPRP regulations.
support of HUD OIG’s audit plan goals    However, HUD’s ability to measure the effectiveness
to oversee Recovery Act-funded           of the HPRP was hampered by data limitations. These
activity and improve HUD’s execution     limitations are attributed to the limited timeframe for
of and accountability for fiscal         the HPRP and variations in reporting by HPRP
responsibilities.                        grantees. As a result, HUD does not have reliable data
                                         for outcome-based measurements of the HPRP.
The objective of the audit was to        Recognizing these limitations, HUD contracted for a
determine whether HUD had                multi-phased study of the HPRP and in the interim,
established adequate controls to (1)     incorporated perceived HPRP successful attributes into
ensure that grantees complied with       the Emergency Solutions Grants program.
Recovery Act expenditure and             Nevertheless, additional actions could be taken to
performance reporting requirements and develop information to assist in evaluating the
(2) evaluate the HPRP’s effectiveness    effectiveness of the HPRP.
so that positive policies can be applied
to future HUD-funded homelessness
prevention and assistance programs.

 What We Recommend

We recommend that HUD’s Acting
Deputy Assistant Director for Special
Needs encourage HPRP grantees to
identify successful performance
evaluation attempts and profiles of
HPRP promising practices for analysis
and consideration for future study and
report on their use of data available in
HMIS to identify Emergency Solutions
Grant assisted participants who were
HPRP participants to assist in the
evaluation of the effectiveness of the
HPRP assistance.

                                                1
                                    DRAFT


                           TABLE OF CONTENTS


Background and Objective                                                   3

Results of Audit
      HUD Effectively Administered the Homelessness Prevention and Rapid
      Re-Housing Program, but Measuring the Program’s Outcome Presented
      Challenges                                                           4

Scope and Methodology                                                      10

Internal Controls                                                          12

Appendixes
A.    Summary of Actions HUD Took To Mitigate Risks and Ensure Grantee
      Compliance                                                           14
B.    Auditee Comments and OIG’s Evaluation                                17




                                           2
                      BACKGROUND AND OBJECTIVE

The Homelessness Prevention and Rapid Re-Housing Program (HPRP) was a new program
funded under the American Recovery and Reinvestment Act of 2009 enacted on February 17,
2009. The Recovery Act provided a one-time allocation of $1.5 billion for temporary financial
assistance and housing relocation and stabilization services to individuals and families that were
homeless or who would be homeless but for this assistance. Accordingly, HPRP assistance was
targeted to individuals and families that were (1) currently in housing but were at risk of
becoming homeless and needing temporary rent or utility assistance or assistance to move to
another unit, and (2) experiencing homelessness (residing in emergency or transitional shelters or
on the street) and needing temporary assistance to obtain housing.

The U.S. Department of Housing and Urban Development (HUD) administered the HPRP under
its Office of Special Needs Assistance Programs within its Office of Community Planning and
Development. HUD issued initial regulations for HPRP on March 19, 2009, in its Notice of
Allocations, Application Procedures, and Requirements for Homelessness Prevention and Rapid
Re-Housing Program Grantees under the American Recovery and Reinvestment Act of 2009
(Docket No. FR-5307-N-01). The notice required prospective grantees to submit a substantial
amendment to their 2008 consolidated action plan within 60 days, outlining their plan for the
distribution and administration of their funds, and noted that HUD would review all correctly
completed substantial amendments within 45 days of receipt and intended to execute all grant
agreements no later than September 1, 2009. HUD later awarded 531 grants by September 1,
2009, and the remaining 4 by September 30, 2009, as required by the Recovery Act.

HUD distributed HPRP funding to cities, counties, States, and territories (grantees) based upon
the formula used to distribute its Emergency Shelter Grant program funds. Grantees were
required to expend at least 60 percent of grant funds within 2 years of the date HUD signed the
grant agreement and 100 percent of grant funds within 3 years of the date HUD signed the grant
agreement. Grantees have up to 90 days after the 3-year expenditure deadline to draw down
funds for eligible costs incurred during the final quarter of program administration.

HUD regulations provided that HPRP assistance be given to households at or below 50 percent
of area median income that were in need of temporary assistance to end or prevent homelessness.
Grantees could allocate funds to four different eligible activities: (1) financial assistance, (2)
housing relocation and stabilization services, (3) data collection and evaluation, and (4)
administrative costs.

The objective of the audit was to determine whether HUD had established adequate controls to
(1) ensure that grantees expended funds in accordance with Recovery Act and HPRP guidelines
and complied with Recovery Act reporting requirements, and (2) evaluate the effectiveness of
the HPRP so that positive policies can be applied to future HUD-funded homelessness
prevention and assistance programs.




                                                3
                               RESULTS OF AUDIT


HUD Effectively Administered the Homelessness Prevention and Rapid
Re-Housing Program, but Measuring the Program’s Outcome Presented
Challenges
HUD took actions to mitigate program risks and generally ensured that HPRP grantees complied
with Recovery Act requirements and HPRP regulations. However, HUD’s ability to measure the
effectiveness of the HPRP was hampered by data limitations. These limitations are attributed to
the limited timeframe for the HPRP and variations in reporting by HPRP grantees. As a result,
HUD does not have reliable data for outcome-based measurements of the HPRP. Recognizing
these limitations, HUD contracted for a multi-phased study of the HPRP and in the interim,
incorporated perceived HPRP successful attributes into the Emergency Solutions Grants (ESG)
program. Nevertheless, additional actions could be taken to develop information to assist in
evaluating the effectiveness of the HPRP.



 Controls Established To
 Mitigate Risks and Ensure
 Grantee Compliance

              HUD identified and addressed HPRP program risks through a front-end risk
              assessment before implementing the HPRP in accordance with Office of
              Management and Budget guidelines. Subsequently, HUD established adequate
              controls to monitor that the HPRP was implemented in accordance with Recovery
              Act regulations and HUD guidance. After developing and issuing HPRP
              regulations, HUD headquarters played an active role in monitoring grantees using
              remote and onsite monitoring to assess compliance with program requirements
              and provided training and guidance to the grantees via a variety of methods,
              including webinars, answers to frequently asked questions, and teleconferences.
              HUD contracted with three technical assistance providers to supplement its
              headquarters staff to provide remote and onsite technical assistance, develop
              training webinars, and assist with analysis of grantee-reported data. HUD also
              established various controls to track grantee expenditures to ensure that funds
              would be expended within prescribed timeframes. A more detailed description of
              HUD’s actions can be found in appendix A.

 Limited Reliable Outcome-
 Based Performance Data

              While HUD established definitive output measures for the HPRP, it had not
              identified clear outcome-based measurements for the HPRP. Developing

                                               4
             outcome-based measures for the HPRP was hampered by the finite timeframe in
             which the HPRP operated.

             The HPRP provided funds to both rapidly re-house the homeless and prevent
             homelessness for those in imminent danger of becoming homeless. Researchers
             have concluded that little empirical evidence exists on the effectiveness of
             homelessness prevention activity. This conclusion is attributed to the fact that
             prior Federal initiatives to address homelessness did not emphasize prevention
             activities and measuring prevention efforts is inherently difficult.

             The U.S. Government Accountability Office (GAO) recently reported1 that eight
             Federal agencies administered homelessness programs in 2010 and, while almost
             all of the programs it reviewed maintained performance information, such as the
             number of homeless served, only 2 of the 26 programs reviewed had conducted a
             program evaluation within the past 5 years. Consequently the administering
             agencies had limited information with which to assess how effective their
             programs were in achieving their objectives and determine in which strategies to
             invest. However, the U.S. Interagency Council on Homelessness is required to
             coordinate the Federal response to homelessness and has taken steps to coordinate
             and promote initiatives across Federal agencies. In accordance with these efforts,
             HUD officials meet monthly with Council representatives; however, to date these
             initiatives have not included actions to evaluate the HPRP.

Limited Timeframe for HPRP
Hampered Measuring Outcome

             The Recovery Act funded the HPRP as a one-time program, the purpose of which
             was to promote economic recovery, assist those most affected by the recession,
             and to expedite eligible assistance to eligible households within the Recovery Act
             specified timeframes. As such, both HUD and HPRP grantees had to quickly
             establish an implementation framework and begin expending funds, and HUD
             worked to focus grantee resources on serving program participants. HUD
             officials noted that evaluating the housing stability of HPRP-assisted households
             would have diverted grantees’ resources from serving clients, and given the one-
             time nature of the HPRP, funding would not be available to the grantees after its
             termination.

             HUD’s reported overall goal for HPRP was to stably house HPRP-assisted
             participants by preventing individuals and families from becoming homeless or
             helping those experiencing homelessness to be quickly re-housed and stabilized.
             Accordingly, HUD established the percentage of program participants stably
             housed upon exit from the program as an outcome-based measure of the
             effectiveness of the HPRP. Using this measure, HUD initially reported in June

 1
  Homelessness: Fragmentation and Overlap in Programs Highlight the Need to Identify, Assess, and Reduce
 Inefficiencies, May 10, 2012 (GAO-12-491)

                                                   5
              2011 in its HPRP year 1 summary that 52 percent of HPRP-assisted participants
              classified as imminently losing housing or unstably housed upon entry were
              stably housed upon exit and 88 percent (94 percent when participants with
              missing data were excluded from consideration) of participants “exited to
              permanent housing.” However, HUD later reported as an outcome measure in
              June 2011 in its conclusion section of the Annual Homeless Assessment Report
              provided to Congress2 after the first year of the HPRP that 94 percent of HPRP
              participants assisted at that time “exited to a permanent housing situation.” The
              difference between “stably housed” and “permanent housing” is that “permanent
              housing” does not consider the stability of housing.

              HUD officials did not draw any conclusions on the data collected on the number
              of participants stably housed and further stated that any attempts to do so might
              not be reliable because of potential differences in the way each grantee recorded a
              participant’s status upon exit from the program. In addition, HPRP data did not
              account for the number of participants who may have been assisted more than
              once through the program. HUD officials stated that they did not use the data
              collected through the annual performance report to analyze the effectiveness of
              the program but, rather, reported the information received from the grantees.
              Consequently, HUD did not evaluate the HPRP in terms of stability of the
              participants’ housing at exit because HUD did not have the ability to track
              participants’ housing status subsequent to exit from the HPRP (e.g. 3 months, 6
              months, or 1 year after exit) and each community might have its own way of
              tracking the data.

Data Integrity Issues Hampered
Measuring Effectiveness

              The Recovery Act required HPRP grantees to use the Homeless Management
              Information Systems (HMIS) or a comparable client-level database to collect and
              report on their HPRP activity. However, due to grantee staff capability and
              variances in HMIS database software among grantees, some grantees had
              difficulty preparing their performance reports in a timely manner, and data were
              not always accurate or complete. In addition, the unduplicated number of
              participants reported to Congress might not have been accurate during the initial
              phase of the program. Since a person or household was allowed to receive HPRP
              assistance from more than one subgrantee and the subgrantees could use different
              HMIS or comparable systems, producing unduplicated, aggregated beneficiary
              data for the annual performance report sometimes required manually entering the
              number of individuals assisted into e-snaps. Therefore, HUD allowed some
              grantees to report duplicated numbers.


 2
  This is HUD’s annual report to Congress about homelessness. The report is based upon data obtained from
 two sources: single-night, point-in-time counts of both sheltered and unsheltered homeless populations reported
 on the Continuum of Care applications to HUD and counts of the sheltered homeless population over a full year
 provided by a sample of communities based on data in their local Homeless Management Information Systems.

                                                     6
                 HUD official believed that they would be able to advance HMIS implementation
                 with the added regulatory guidance and accountability under the HEARTH Act.3
                 Through the new HMIS regulations authorized by the Act, HUD was developing
                 more formalized HMIS standards and a procedure to monitor grantee compliance.
                 These regulations were anticipated to be released in the fall or winter of 2012.

    Some Grantees Attempted To
    Measure Effectiveness

                 Through a literature search and discussion with HUD, we identified several
                 studies of the HPRP that were being conducted locally by HPRP grantees. Two
                 reports reviewed after the first year of HPRP implementation contained outcome-
                 based performance indicators and identified some issues for improvement. One
                 of these studies4 concluded that, while most subgrantees were meeting or
                 exceeding service volume expectations, less success was achieved in meeting
                 anticipated prevention and diversion outcomes. The second report5 indicated that
                 it was not possible to draw a direct correlation between homeless preventive
                 services and the prevention of homelessness unless the number of seekers of the
                 homeless prevention was tracked as an indicator of the need for services in that
                 community. Even for the re-housing aspect of the program, the study concluded
                 that although the program had shown that 23 percent of potential clients were
                 served, it was too early to determine whether clients were being permanently
                 stabilized. Both reports agreed that evaluation techniques and practices were not
                 built into the project-program from the beginning and, thus, the data necessary for
                 a comprehensive evaluation were not tracked. The reports recommended that
                 agreement should have been reached on what qualified as program success and
                 then benchmarks to measure those results should have been established, including
                 a long-term tracking mechanism to determine rates of reapplying for assistance.

    Action Planned To Better
    Measure HPRP Effectiveness

                 Recognizing the need to develop better information with which to measure the
                 effectiveness of the HPRP, in September 2010 HUD competitively awarded a
                 $1.19 million contract from its HPRP administrative funds for a study to focus on
                 the homelessness prevention aspect of the HPRP. The report was scheduled to be


3
  The Homeless Emergency Assistance and Rapid Transition to Housing (HEARTH) Act of 2009 amends and
reauthorizes the McKinney-Vento Homeless Assistance Act with substantial changes, including consolidation of
HUD’s competitive grant programs, creation of a Rural Housing Stability Assistance Program, a change in HUD’s
definition of homelessness and chronic homelessness, a simplified match requirement, increased prevention
resources, and an increased emphasis on performance.
4
  An Interim Evaluation of the Massachusetts Homelessness Prevention and Rapid Re-Housing Program by Tufts
University Department of Urban and Environmental Policy and Planning, May 2011
5
  Program Evaluation: Homelessness Prevention and Rapid Rehousing, Collier County by Non Profit
  Consulting

                                                      7
             completed by August 2012, but that date was revised to the end of calendar year
             2012.

             The scope of work included an analysis of the 535 grantees’ progress reports, a
             Web survey of a nationally representative sample of HPRP grantees and
             subgrantees, and site visits to 15 to 18 selected HPRP-funded communities. The
             end product of the study would be a summary of the findings and options for
             future experimental or quasi-experimental studies of homelessness prevention
             programs. Consequently, an evaluation of the outcome of the homelessness
             prevention aspect of the HPRP apparently will have to await the action
             recommended by this study and whatever approach may be implemented.

             In the interim, HUD had reviewed several studies related to the HPRP conducted
             by non-HUD-related organizations and compiled case studies of seven grantees
             that it posted to the “Promising Practices and Success Stories” section of its
             Homelessness Resource Exchange website to provide examples of how the HPRP
             was implemented across the country. HUD identified some operational
             characteristics of successful homeless programs, which it incorporated into the
             ESG program. These included requiring grantees to coordinate with the
             Continuum of Care lead agency and emphasizing the short- and medium-term
             rental assistance and services to rapidly rehouse the homeless. Similar to the
             HPRP, the ESG gave grantees flexibility to implement their own program related
             to determining how to allocate funds each program year, developing performance
             standards, and evaluating the outcomes of projects and activities assisted.
             However, due to this flexibility, the risk existed that there would be no uniform
             method of evaluating the outcome of future homelessness assistance programs.

Conclusion

             While the accelerated timeframe for obligation and expenditure of HPRP funds
             and an emphasis on homelessness prevention presented implementation
             challenges, HUD had generally established adequate controls to ensure that the
             535 HPRP grantees expended funds in accordance with guidelines and complied
             with Recovery Act reporting requirements. However, data limitations presented
             challenges in measuring the HPRP’s effectiveness. While HUD has taken actions
             to address these challenges, additional efforts are possible to conduct the analysis
             needed.

Recommendations

             We recommend that HUD’s Acting Deputy Assistant Director for Special Needs

             1A.    Coordinate with HPRP grantees before grant closeout to document and
                    assess studies of individual grantee programs to identify successful
                    performance evaluation attempts.

                                              8
1B.   Encourage HPRP grantees, before the HPRP grant closeout process, to
      submit profiles of HPRP promising practices to HUDHre.info for analysis
      and consideration for future study.

1C.   Encourage local grantees to report on their use of data available in HMIS
      to identify Emergency Solutions Grant (ESG) assisted participants who
      were HPRP participants to assist in the evaluation of the effectiveness of
      the HPRP homelessness prevention assistance.

1D.   Coordinate any future study of the HPRP’s effectiveness with the U.S.
      Interagency Council on Homelessness to ensure that any related study
      methodologies are considered.




                               9
                        SCOPE AND METHODOLOGY

The audit focused on HUD’s monitoring of HPRP grantees (1) to ensure that funds were
expended in accordance with Recovery Act and HPRP guidelines and HPRP grantees complied
with Recovery Act reporting requirements, and (2) to assess the effectiveness of the program.
To accomplish our objectives, we performed the following steps:

      Reviewed the Recovery Act HPRP legislation, HPRP notice, HUD HPRP guidance and
       various webinars, and the HUD Office of Community Planning and Development HPRP
       monitoring guide to gain an understanding of the HPRP.

      Reviewed and summarized the results of 25 prior Office of Inspector General (OIG)
       HPRP external audits to gain an understanding of grantee compliance issues and HUD
       actions to address them.

      Reviewed HUD’s HPRP front-end risk assessment to gain an understanding of the
       program risks HUD identified for the HPRP and actions it had planned to address those
       risks.

      Reviewed 80 monitoring reports conducted by HUD headquarters and field officials to
       document HUD’s actions to assist grantees in administering their programs.

      Reviewed background, guidance, and proposed rules for HMIS to gain an understanding
       of the system used to report on HPRP accomplishments.

      Reviewed obligation information for 55 grantees under the Newark, NJ, and Boston, MA,
       field office jurisdiction reported in federalreporting.gov to determine whether grantees
       had obligated HPRP funds in a timely manner.

      Conducted interviews with HUD headquarters and field staff to gain an understanding of
       HUD’s implementation and monitoring of the HPRP.

      Conducted a literature search to identify evaluations of the HPRP and obtained and
       analyzed 11 such evaluations.

      Obtained and analyzed the objectives and scope of HUD’s contracted study of the HPRP
       to gain an understanding of its methodology and planned outcome.

      Reviewed and analyzed the interim regulations and HUD’s training materials for the
       fiscal year 2012 Emergency Solutions Grants program to determine the extent to which it
       incorporated lessons learned from the HPRP.

      Coordinated with HUD Inspections and Evaluations Division staff on its review of
       Recovery Act-funded programs as it relates to the HPRP to limit duplication.

                                              10
We performed the audit fieldwork from January through July 2012 at the HUD OIG Office of
Audit in Newark, NJ, and HUD headquarters in Washington, DC. Our review generally covered
the period March 1, 2009, through June 30, 2012, and was extended as necessary.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               11
                              INTERNAL CONTROLS
Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                     Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

                     Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

                     Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resources use is
                      consistent with laws and regulations.

               We assessed the relevant controls identified above and identified no deficiencies.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

               We evaluated internal controls related to the audit objectives in accordance with
               generally accepted government auditing standards. Our evaluation of internal
               controls was not designed to provide assurance on the effectiveness of the internal


                                                 12
control structure as a whole. Accordingly, we do not express an opinion on the
effectiveness of HUD’s internal control.




                                13
                                             APPENDIXES

Appendix A

SUMMARY OF ACTIONS HUD TOOK TO MITIGATE RISKS
AND ENSURE GRANTEE COMPLIANCE

Program Risks Identified and Addressed Before Implementation

HUD identified and addressed program risks through a front-end risk assessment before
implementing the HPRP in accordance with Office of Management and Budget guidelines.
Through this assessment, HUD identified the following five objectives as requiring emphasis:
timeliness, clear and measurable objectives, transparency, monitoring, and reporting. It
implemented planned actions to address the five objectives within a reasonable timeframe.

OIG previously reviewed HUD’s front-end risk assessment6 and concluded that HUD adequately
identified and disclosed the risks and planned actions needed to mitigate the risks. Nevertheless,
the HPRP implementation presented challenges because it was a new program requiring
development of regulations and quick implementation.

Various Mechanisms Used To Provide Program Information

After developing and issuing HPRP regulations, HUD headquarters played an active role in
monitoring grantees using remote and onsite monitoring to assess compliance with program
requirements and provided training and guidance to the grantees via a variety of methods,
including webinars, answers to frequently asked questions, and teleconferences. HUD
contracted with three technical assistance providers to supplement its headquarters staff to
provide remote and onsite technical assistance, develop training webinars, and assist with
analysis of grantee-reported data. HUD headquarters sponsored nine regional 1½-day training
conferences between April and July 2009 to provide information and guidance to HPRP grantees
and subgrantees. In addition, HUD used its Homelessness Resource Exchange Web site
(www.HUDHre.info) to update and clarify guidance and respond to grantees’ questions. Further,
HUD encouraged all grantees and subgrantees to sign up for the HPRP listserv7 to receive
information relevant to HPRP policy and training.




6
  OIG report 2009-BO-0801, dated August 17, 2009
7
  A listserv is a distribution list enabling homeless service providers, Continuum of Care organizations, technical
assistance providers, and other stakeholders to stay informed about HUD’s homeless programs, competitions,
awards, policy updates, and more. HUD has many lists to more effectively distribute information that is pertinent to
a particular audience.


                                                        14
Controls Established To Ensure Compliance With Program Requirements

HUD established various controls to help ensure grantees’ compliance with Recovery Act
expenditure requirements. While the Recovery Act did not specify a timeframe for the grantees
by when HPRP funds had to be obligated, in its March 19, 2009, notice, HUD required that
grantees obligate their funds by September 30, 2009. However, HUD did not specifically
monitor the timeliness of grantee obligations. HUD officials explained that the obligation
timeframe requirement was established to help ensure that grantees expended funds within the
required timeframe but that punitive action was not intended.

HUD established mechanisms to track grantee expenditures weekly and issued warning letters to
grantees that it projected might not meet the 2-year and 3-year statutory expenditure
requirements.8 While 7 grantees did not meet the 2-year expenditure requirement, HUD used the
HUD Secretary’s discretion to not recapture these grantees’ funds.9 Rather, HUD provided
technical assistance to these grantees to ensure that they would meet the 3-year expenditure
deadline. HUD officials expected that all grantees would meet the 3-year requirement.

The Recovery Act required that data on jobs retained and created, funds expended, and activities
conducted with Recovery Act funds be publicly reported on the FederalReporting.gov Web site.
HUD also required grantees to submit quarterly and annual performance reports on outputs, such
as the number of individuals and families assisted and the amount expended by allowable HPRP
services, and outcomes, such as participants’ housing status upon termination from the HPRP.
HUD closely monitored grantees’ compliance with these reporting requirements and sought to
ensure compliance rather than taking punitive action for noncompliance. Accordingly, HUD
sent noncompliant grantees warning letters, and if a grantee failed to submit required reports in a
timely manner three consecutive times, HUD would discuss with the applicable field office
director what further action to take, such as conducting a monitoring visit or imposing sanctions,
such as ceasing drawdowns or recapturing funds. HUD stopped drawdowns for two grantees
until they submitted their reports in compliance with regulations.

Remote and Onsite Monitoring Used To Ensure Grantee Compliance

HUD headquarters established a goal for headquarters and field office staff to monitor at least
150 of the 535 grantees based upon grantee perceived risk in accordance with overall Office of
Community Planning and Development policy. As of June 30, 2012, HUD had completed
reviews of 88 high-risk grantees based on fiscal years 2010 and 2011 risk scores (48 by
headquarters and 40 by field offices) and 66 other grantees based on identified issues that raised
their risk. Therefore, HUD exceeded its goal of conducting 150 monitoring reviews.




8
  The Recovery Act required grantees to expend at least 60 percent of awarded funds within 2 years of the date the
funds became available for obligation and expend 100 percent within 3 years of that date. The Act further provided
that if a grantee did not spend 60 percent of its funds within 2 years, HUD could reallocate the funds; and if 100
percent were not expended within 3 years, the funds were subject to recapture.
9
  The Wall Street Reform Act of 2010 required that any funds recaptured be returned to the U.S. Treasury rather
than being available to reallocate among other grantees.

                                                        15
OIG conducted a review of HPRP administration by HUD Region VII’s Office of Community
Planning and Development10 and concluded that the office established and implemented an
effective risk assessment process and monitored grantees in compliance with HUD’s Recovery
Act monitoring requirements.




10
     OIG report 2011-KC-0002, dated June 23, 2011

                                                    16
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         17
Ref to OIG Evaluation   Auditee Comments




Comment 1

Comment 2




                         18
Ref to OIG Evaluation   Auditee Comments




Comment 2


Comment 3




Comment 4




                         19
Ref to OIG Evaluation   Auditee Comments




Comment 5




Comment 6



Comment 7




                         20
Ref to OIG Evaluation   Auditee Comments




Comment 7




                         21
Ref to OIG Evaluation   Auditee Comments




Comment 8




Comment 9




Comment 10




Comment 11




                         22
Ref to OIG Evaluation   Auditee Comments




Comment 12




Comment 13




                         23
Ref to OIG Evaluation   Auditee Comments




Comment 14




Comment 15




Comment 16




Comment 17




                         24
Ref to OIG Evaluation   Auditee Comments




Comment 18




Comment 19




Comment 20




                         25
Ref to OIG Evaluation   Auditee Comments




Comment 21




Comment 22




                         26
                         OIG Evaluation of Auditee Comments

Comment 1   HUD officials agree that the report accurately credits HUD with numerous
            achievements related to mitigating risk and ensuring grantee compliance, and that
            the title of the draft report reflects this positive result. However, these officials
            are concerned that the report itself does not sufficiently highlight this result. We
            believe, as HUD acknowledges, that the subject of the report, the finding title, the
            discussion on p.4 of the report, and the appendix appropriately acknowledge
            HUD’s accomplishments; accordingly, the report does sufficiently highlight
            HUD’s actions taken to achieve these accomplishments .

Comment 2   HUD officials are concerned with the report conclusion that data limitations
            hampered HUD’s ability to measure HPRP’s effectiveness, and assert that HPRP
            was successful according to the measures outlined in the Recovery Act and
            HUD’s HPRP notice. However, these measures emphasized by HUD are output-
            type measures that report the number of individuals served and the percent of
            funds expended within the two and three year deadlines. The report does not
            question the usefulness of these measures as one means of evaluating the HPRP,
            but suggests that outcome measures should have been used to determine whether
            participants were stably housed as proposed in its Front-End Risk Assessment of
            the program.

Comment 3   While the output-type measures HUD has established do provide a basis upon
            which to assess the extent to which the HPRP met its stated goals, in its front-end
            risk assessment HUD noted that the outcome data it planned to collect would
            allow it to evaluate the effectiveness of the HPRP in terms of the effect on
            homelessness status and housing stability. Such evaluation would be important to
            assist HUD in determining how best to target future resources assisting the
            homeless and preventing homelessness.

Comment 4   HUD officials note that while they have been able to apply lessons learned from
            HPRP to other programs, they chose not to measure the effectiveness of HPRP
            interventions by evaluating individual participant outcomes. HUD officials
            further note that a national, cross-site evaluation examining HPRP client
            outcomes would have been difficult. This is consistent with our report that data
            limitations challenge measuring the effectiveness of HPRP. As HUD further
            notes, its contracted study is intended to provide a framework that will set the
            stage for an outcome-focused study.

Comment 5   HUD officials state that whether households were “stably housed” at the end - and
            for some time period after - the assistance was over is a problematic approach to
            measuring the effectiveness of the HPRP. However, the report does not endorse
            any particular approach to measuring the effectiveness of the HPRP, but discussed



                                             27
              this approach because it was the approach HUD noted in its Front-End Risk
              Assessment Summary and Program-Level Plan for the HPRP in May 2009.

Comment 6     Contrary to HUD officials’ statement, OIG did not select one specific measure of
              HPRP effectiveness. Rather, HUD had reported that its overall goal for HPRP
              was to stably house HPRP-assisted participants and initially reported in its front-
              end risk assessment that the percent of participants stably housed would be used
              to evaluate the HPRP. OIG in the report neither identified nor endorsed a specific
              outcome measure, but noted that a lack of data and the finite existence of the
              HPRP limited evaluating the effectiveness of the HPRP.

Comment 7     OIG agrees that these are some of the conditions that currently limit HUD’s
              ability to assess the effectiveness of the HPRP.

Comment 8     The intent of this recommendation is to enable HUD officials to identify, evaluate
              and consider any HPRP evaluation attempts by HPRP grantees. HUD’s proposed
              action to use listserv to obtain this information is responsive to the
              recommendation.

Comment 9     HUD officials stated that they have been requesting information on promising
              practices from HPRP grantees, but that they have not evaluated any local program
              to determine whether the “promising practice” identified resulted in
              improvements. While collecting this information is a first step, HUD should
              evaluate the information collected, either on its own or as part of its planned
              contracted study of the HPRP to aid in identifying best practices which could be
              the subject of further assessment.

Comment 10 HUD officials stated that using data in the Homelessness Management
           Information System (HMIS) on participants exiting to Emergency Shelter Grant
           assistance would not be an appropriate national measure of the effectiveness of
           the HPRP for several reasons. However, they stated that the data collected in
           HMIS can accommodate this type of analysis on a local level. The intent of the
           recommendation to use HMIS data on individuals who were assisted by HPRP
           and are seeking Emergency Shelter Grant assistance was not to provide a
           comprehensive set of data with which to evaluate the HPRP, but to make use of
           data currently available to assist in the evaluation of the effectiveness of the
           HPRP. Nevertheless, we have changed the report to recommend that HUD
           encourage local grantees to report on their use of data in the Homelessness
           Management Information System (HMIS) on participants exiting to Emergency
           Shelter Grant assistance to assist in the evaluation of the HPRP. Again, this could
           aid HUD to identify best practices that could be the subject of further assessment.

Comment 11 HUD’s action is responsive to the recommendation.

Comment 12 OIG agrees that the italicized portion of the sentence in the background section of
           this report that reads “…but had the capacity to maintain stable housing upon the

                                              28
              conclusion of assistance” was a general goal of the HPRP, but was not a specific
              requirement for eligibility. Therefore, we removed the italicized portion of the
              sentence.

Comment 13 The report acknowledged on p. 4 and 5 that HUD established the percentage of
           program participants who were stably housed upon exit as an outcome-based
           measure. However, while HUD reported on this measure in its year 1 summary,
           in its subsequent Annual Homeless Assessment Report to Congress, HUD
           highlighted the measure of exiting to a “permanent housing destination”.
           However, this later measure does not consider the stability of housing to which a
           participant exits. Thus, the report concluded that clearly defined outcome-based
           measurements had not been established because of the different measures reported
           without clear definitions.

Comment 14 The comments made by HUD officials’ agree with the information in our report.

Comment 15 HUD officials note that there is no mention of the limited timeframe in which the
           HPRP was administered. Therefore, additional information was added to note
           that the HPRP was a one-time program with specific timeframes in which the
           funds had to be expended.

Comment 16 HUD officials believe that the report implies an inconsistency in the statistics
           reported. There is no intent to imply an inconsistency in the statistics, but only to
           note that the second report emphasized the permanent housing status of HPRP-
           assisted participants, and not their stability of housing. This may be due to the
           limited timeframe in which the participant status could be evaluated.

Comment 17 HUD officials comments support the report statement that measuring the number
           of participants stably housed might not be reliable. Nevertheless, the report was
           changed to read that HUD did not draw any conclusions on the data collected
           regarding the number of participants stably housed.

Comment 18 HUD officials’ comments support the report conclusion that data limitations, as a
           result of the high cost to collect the necessary data and the one-time nature of the
           program, hampered the evaluation of the effectiveness of the HPRP.

Comment 19 HUD officials’ concur that some grantees submitted reports with erroneous
           information, which is the basis for concluding that there were data integrity
           issues. Further, the report does not conclude that data integrity issues were why
           HUD did not measure the effectiveness of HPRP; only that such issues would
           present challenges to measuring the effectiveness.

Comment 20 The term homeless preventive services and the prevention of homelessness is
           used in the noted reference; it is not quoting the HPRP notice.




                                               29
Comment 21 While HUD officials stated that they did not intend to imply that the communities
           posted on the Homelessness Resource Exchange website were “successful
           communities”, the communities highlighted were posted in a section of the
           Homelessness Resource Exchange website entitled “Promising Practices and
           Success Stories”. Nevertheless, we added HUD officials comment that “the
           community examples were posted to the “Promising Practices and Success
           Stories” section of its Homelessness Resource Exchange website to provide
           examples of how the HPRP was implemented across the country.

Comment 22 The report was clarified to note that the monitoring goal was for both HUD
           headquarters and field offices and HUD exceeded its goal of conducting 150
           monitoring reviews.




                                             30
